Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




       BIRTH CERTIFICATE
             FRAUD




                   JUNE GIBBS BROWN
                    Inspector General

                     SEPTEMBER 2000
                      0EI-07-99-00570
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VII, Kansas City office prepared this report under the direction of James H. Wolf,
Regional Inspector General, and Brian Pattison, Deputy Regional Inspector General.
Principal OEI staff included:

REGION                                                  HEADQUARTERS

Deborah Walden, Team Leader
                            Linda Hall, Program Specialist

Mike Craig, Program Analyst
                            Barbara Tedesco, Technical Support Staff

Tricia Fields, Program Analyst

Linda Paddock, Program Analyst

Dennis Tharp, Program Analyst

Elander Phillips, Program Inspection Assistant




     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-5959.
          Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei/
                    EXECUTIVE                          SUMMARY

PURPOSE
        To provide an update on the nature and extent of birth certificate fraud.

BACKGROUND
        Legitimate birth certificates provide vital information about the person whose name
        appears on the certificate. Issuing birth certificates is the responsibility of State vital
        records registrars and numerous local issuing entities. While originally intended for the
        sole purpose of birth registration, birth certificates are now used extensively for
        employment purposes and to obtain benefits or other documents used for identification.

        Over the last 25 years, a number of studies have addressed problems related to false
        identification and the misuse of birth certificates. These studies conclude that false
        identification is a major factor in crime, and that most, if not all, Federal fugitives and drug
        trafficking crimes are associated with false identification. They also conclude that stolen,
        counterfeit, and altered birth certificates are often used as “breeder documents” that allow
        the holder to obtain documents needed to create new identities. The Office of Inspector
        General has conducted three inspections focused specifically on birth certificate fraud that
        identified a number of vulnerabilities in birth certificate processes. Because so many
        Federal and State agencies rely on birth certificates to assist them in determining eligibility
        for services and benefits, it is important that these agencies have current information on
        the nature and extent of birth certificate fraud to assist them in the proper assignment and
        protection of benefits.

        This inspection was initiated at the request of the Department of Health and Human
        Services to provide information which the Department could use in responding to
        responsibilities placed on it as a result of the Illegal Immigration Reform and Immigrant
        Responsibility Act of 1996.

        We used two mechanisms to gather information. We gathered general information
        regarding vital records policies and procedures from 53 primary vital records registrars
        using mail surveys. We also collected more in-depth information through personal
        interviews with State registrars, fraud investigators, and local and State vital records,
        Passport Services, Immigration and Naturalization Services, Social Security
        Administration, and public assistance staff in five States and New York City. We also met
        with the Center for Disease Control and Prevention (CDC), National Center for Health
        Statistics, staff who provided us with comments on the draft of this report.

FINDINGS
Fundamental, Irreconcilable Conflicts Surround Birth Certificate Purposes
and Uses

          A certified copy of a birth certificate is proof only that a birth occurred and was recorded.
          For that purpose, it may be desirable that the public be allowed easy access to them.
          However, the agencies and organizations that use birth certificates as proof of
Birth Certificate Fraud
                                                      i                                OEI- 07-99-00570
          identification for employment purposes, to obtain benefits or other documents
          (e.g., driver’s licenses, Social Security cards, and passports), and to assist them in
          determining eligibility for public assistance and other benefits, may have concerns with
          how easily certified copies of birth certificates can be obtained. These conflicting
          perspectives are at the very heart of the birth certificate controversy.

Birth Certificates Continue to be Used as “Breeder Documents” and are Easy to
Obtain

          Virtually all Federal and State agencies agree that fraudulent birth certificates are used as
          “breeder documents” to obtain the genuine documents needed to create new identities,
          and that fraudulent birth certificates are easy to obtain. Factors which contribute to their
          use as “breeder documents” include the following:

          S	        currently, 6,422 different entities issue birth certificates. This large number of
                    State, county, city, township, and other entities that issue birth certificates
                    increases opportunities for fraud, theft, bribery, and other methods of illegally
                    obtaining birth certificates;

          S	
          S         thirteen States allow “open” access to birth records, which allows virtually anyone
                    to purchase copies of any birth certificates on file; and

          S	
          S         birth certificates can be purchased without identification from some vital records
                    offices and issuing entities.

Birth Certificate Fraud is Hard to Detect

          Many altered or counterfeit birth certificates and genuine birth certificates held by
          imposters may go undetected. The reasons why these fraudulent birth certificates are hard
          to detect include the following:

          S         over 14,000 different versions of birth certificates are in circulation;

          S         nearly 4 million United States births were registered in 1999;

          S	        security features contained in the paper used to issue birth certificates, as well as
                    formats and signatures, vary among State vital records offices and the many local
                    entities issuing them;

          S	        technological advances in the Internet, scanners, color printers, and copiers make
                    it easier to obtain genuine birth certificates and create counterfeit ones;

          S	        between 85 and 90 percent of the birth certificate fraud encountered by the
                    Immigration and Naturalization Services and Passport Services staff is the
                    result of genuine birth certificates held by imposters -- the most difficult fraud to
                    detect; and

          S	        Federal and State agency staff report receiving only limited training focused on
                    the detection of fraudulent birth certificates.



Birth Certificate Fraud
                                                       ii                               OEI- 07-99-00570
State Practices Create Opportunities for Fraud

          It was the consensus of those we interviewed that a number of State practices create
          opportunities for fraud. Those practices include the following:

          S	        delayed, amended, and midwife birth registrations that are based on affidavits of
                    personal knowledge, include no documentary evidence, and are not often marked
                    or overlaid accordingly;

          S	        delays in matching death and birth records can make the identities of many
                    deceased persons easy to assume between the time the person dies and the time the
                    death and birth records are matched;

          S         questionable physical security situations that create opportunities for fraud; and

          S         limited oversight of local issuing entities by State vital records offices.

Birth Certificate Fraud is Seldom Prosecuted

          Virtually all of the Federal and State agency staff we talked with indicate birth certificate
          fraud is seldom prosecuted unless it can be linked to large dollar losses or other punishable
          crimes. Most staff also indicate that many prosecutors are reluctant, or refuse to take
          birth certificate fraud cases in which the only charge is attempting to obtain another
          individual’s birth certificate, or counterfeiting or altering a birth certificate. At the same
          time, misconceptions exist surrounding the security and integrity of birth certificates.

CONCLUSIONS
Birth Certificates Alone do not Provide Conclusive or Reliable Proof of Identity

          Many agencies and organizations request that individuals provide their birth certificates to
          receive a benefit or service, or to support the issuance of other documents often used for
          identity purposes (e.g., driver’s license). However, agencies who rely on birth certificates
          as a means of establishing identity must understand the limitations of accepting a birth
          certificate as proof of age, citizenship, or identity. For example, genuine documents
          obtained with counterfeit birth certificates can be used to obtain genuine birth certificates.
          Thus, it is inherently illogical to require someone to prove their identity using potentially
          fraudulent identity documents spawned by false birth certificates in order to obtain a birth
          certificate.

 Further, it would be Impractical to Redesign Birth Certificates to Make them
 Reliable Identification Documents in and of Themselves

          Efforts to make the birth certificate into a reliable identity document are complicated
          by the more than 14,000 different legitimate versions in existence, and the more than
          6,000 entities which issue them and the processes they use to do so. Efforts are also
          complicated by the ease with which birth certificates can legitimately be obtained and
          counterfeited, and the fact that the majority of fraud is now being committed by imposters



Birth Certificate Fraud
                                                       iii                               OEI- 07-99-00570
          using genuine birth certificates. Also, any changes to the birth certificate itself will take
          essentially a lifetime to become effective.

Some Efforts to Redesign Birth Certificates Might Even be Undesirable

          The primary purpose for which birth certificates were created -- to document and record
          births -- is served well by the large number of entities that issue them and the technology
          which makes them readily and quickly available. Because redesigning birth certificates
          could jeopardize their availability, to do so might be undesirable. Unfortunately, that
          availability contributes to fraud and the unreliability of birth certificates as identification
          documents.

Nevertheless, Since Birth Certificates can Play an Important Role in Establishing
Identity, Their Integrity Should be Improved

          When used in combination with other documents, birth certificates can add to the level of
          proof in establishing eligibility and identity. As noted previously, many agencies use them
          in this way. Therefore, it is important that the processes used to issue birth certificates be
          standardized and recent advances in technology utilized to ensure birth certificate integrity
          parallels that of other identification documents. It is also important that user agencies be
          vigilant in their detection of fraudulent documents and documents held by imposters. We
          have included consensus suggestions for improving the birth certificate process and the
          detection of fraud in the body of the report.

In Addition, Federal and State Program Administrators Should Assess the Proofs
of Identity They Will Accept

          Even if their security is improved, birth certificates may still not be the best proof of
          identity. For this reason, program administrators may not want to use birth certificates at
          all, or use them only with other documents, as noted above. Agencies need to specify
          documents and methods of proving identity (e.g., fingerprints, testimony of relatives) they
          will accept in determining eligibility for services. Given what we have learned, if program
          administrators continue to include birth certificates in the proofs of identity they will
          accept, they should also reconsider what steps they will take to detect fraudulent
          certificates and to secure valid ones.




Birth Certificate Fraud
                                                     iv                                 OEI- 07-99-00570
                              TABLE                       OF              CONTENTS

                                                                                                                                 PAGE


          EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



          INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2



          FINDINGS

                    Irreconcilable Conflicts Regarding Goals and Uses . . . . . . . . . . . . . . . . . . . . . . 6


                    Certificates Used As “Breeder Documents”                        . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                    Difficulty in Detecting Fraud              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


                    State Practices         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


                    Birth Certificate Fraud Seldom Prosecuted . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


                    Common Misconceptions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19



          CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



          APPENDICES

                    A: State and Local Birth Certificate Issuing Entities . . . . . . . . . . . . . . . . . . . . 24


                    B: Paper Security Features . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25





Birth Certificate Fraud
                                                                 1                                               OEI- 07-99-00570
                               INTRODUCTION

PURPOSE

          To provide an update on the nature and extent of birth certificate fraud.

BACKGROUND

          The Birth Certificate Process

          Legitimate birth certificates provide vital information about the person whose name
          appears on the certificate (i.e., legal proof of parentage, citizenship, date, place, and time
          of birth). While originally intended for those purposes, their role has evolved to the point
          where they are now used extensively for employment purposes and to obtain benefits or
          other documents (e.g., driver’s licenses, Social Security cards, passports, State
          identification documents). The issuance of birth certificates in the United States is the
          responsibility of 57 State vital records registrars and numerous other entities assigned vital
          records responsibility.

          No Federal requirements exist regarding the reporting and collection of birth certificate
          information. However, the 1992 Model State Vital Statistics Act and Regulations
          published by the National Center for Health Statistics within the Centers for Disease
          Control and Prevention (CDC) state that “Even though the legal responsibility for the
          registration of vital records rests with the individual States, the States and the National
          Center for Health Statistics (the Federal partner) work together to build a uniform system
          that produces records to satisfy the legal requirements of individuals and their families and
          also to meet statistical and research needs at the local, State, and national levels. The
          cooperation includes the development and promotion of standard certificates and
          reporting forms, training and quality control programs, and model legislation.” The
          information contained on birth certificates is the basis for the vital record information
          reported to the National Center for Health Statistics by State vital records registrars.
          States report vital records information without names to the National Center for Health
          Statistics for research and statistical purposes.

          Previous Reports on Birth Certificate Fraud

          Federal Advisory Committee on False Identification - Problems related to false
          identification and misuse of birth certificates have been addressed in a number of studies
          conducted over the last 25 years. In 1974, the Federal Advisory Committee on False
          Identification (FACFI), commissioned by the Attorney General of the United States,
          recognized the criminal use of false identification documents. In its 1976 report entitled



Birth Certificate Fraud
                                                    2                                 OEI- 07-99-00570
          The Criminal Use of False Identification, the committee concluded that 100 percent of all
          Federal fugitives and 80 percent of all drug trafficking are associated with false
          identification. They also reported that false identification is a major factor in crime,
          including illegal immigration and flight from justice, and that falsified or stolen vital
          statistics (i.e., birth certificates) are used as “breeder documents.” (“Breeder documents”
          refer to documents that allow the holder to obtain other documents -- passports, driver’s
          licenses, etc. -- and benefits, such as resident status, Social Security benefits, loans, and
          other government aid, including Temporary Assistance to Needy Families, Food Stamps,
          and Medicaid). The Federal Advisory Committee also issued a supplemental report
          entitled A Plan for Reducing the Abuse of Birth Certification. In 1984, the Laws at Work
          Task Force, co-chaired by top HHS officials, issued a report entitled A Report of the Task
          Force on Criminal Implications of False Identification. These two reports on false
          identification have findings similar to the 1976 report.

          National Association for Vital Records - In 1995, the National Association for Vital
          Records and Health Statistics (now called the National Association for Public Health
          Statistics and Information Systems), issued a staff report identifying many of the same
          problems associated with birth certificate fraud. They recommended uniformity and
          standardization of the forms and paper used to issue certified copies of birth certificates
          and further suggested that more resources be directed toward matching death and birth
          information.

          Office of Inspector General - The Office of Inspector General (OIG) conducted two
          inspections focused specifically on birth certificate fraud (Birth Certificate Fraud,
          OAI-86-02-00001, March 1988, and Birth Certificate Fraud Update - A Management
          Advisory Report, OEI-02-91-01530, December 1991). The OIG also issued a third report
          (Citizenship and Alien Verification - Information, September 1996) in which birth
          certificates were discussed. The first inspection identified vulnerabilities in the birth
          certificate process, the many forms of birth certificates in existence, and issuance
          procedures. The report recommended both interstate and intrastate standardization of
          birth certificates, minimum security standards, and improvements in matching death and
          birth records, and further recommended that States work cooperatively with the Social
          Security Administration (SSA) to establish procedures to issue Social Security numbers to
          infants at birth. The second inspection was conducted in response to a request from the
          Commissioner of the Social Security Administration and summarized SSA’s efforts to
          control birth certificate fraud, which included verification of United States Virgin Island
          birth certificates and assignment of Social Security numbers at birth. In this study, we
          found the nature and extent of birth certificate fraud relatively unchanged since 1988 and
          that major weaknesses continued to hamper the reliability of birth certificates as evidence
          of eligibility for program services and benefits, even though some incremental
          improvements had been made. We reported the same problems and weaknesses in our
          1996 report.




Birth Certificate Fraud
                                                    3                                OEI- 07-99-00570
          This Inquiry

          This inspection was initiated at the request of the Department of Health and Human
          Services in the fall of 1999. The Department requested that the OIG provide information
          that the Department could use in responding to responsibilities placed on it as a result of
          the Illegal Immigration Reform and Immigrant Responsibility Act of 1996. More
          specifically, the Act requires the Secretary to “submit a report to Congress on ways to
          reduce the fraudulent obtaining and use of birth certificates.” This inspection focuses on
          the processes of issuing and fraud associated with certified copies of birth certificates.
          The OIG was asked to provide this information because of our previous work in the area
          of birth certificate fraud at a time when the SSA was located within the Department, and
          because public assistance programs currently funded by the Department still rely on birth
          certificates as one proof of identification in determining eligibility. Further, because so
          many State and Federal agencies rely on birth certificates in determining eligibility for
          services and benefits, we feel it is important that they have current information regarding
          the status of birth certificate fraud.

METHODOLOGY

          We used two mechanisms to conduct this inspection. We first solicited information from
          the 57 primary vital records offices (50 States, Guam, Puerto Rico, United States Virgin
          Islands, American Samoa, Commonwealth of the Northern Mariana Islands, New York
          City, and Washington, DC) using mail surveys. This enabled us to quickly gather general
          information regarding vital records policies and procedures; security measures in place to
          protect against birth certificate fraud; coordination with other agencies; and enforcement
          penalties for committing identity fraud. Of the 57 surveys mailed, 53 were completed and
          returned. We received completed surveys from vital records registrars in each of the 50
          States, and New York City, Washington, DC, and Puerto Rico. We did not receive
          completed surveys from American Samoa, Commonwealth of the Northern Mariana
          Islands, Guam, or the United States Virgin Islands.

          We selected six locations -- five States (California, Florida, Massachusetts, New Mexico,
          and Texas) and New York City -- for additional data collection. Of these States, 4 were
          among the 11 States included in the 1988 and 1991 OIG inspections, as was
          New York City. The original 11 sites were selected because they represent states with
          large cities, cities that serve as major ports, or cities along the United States-Mexico
          border where birth certificate fraud was more concentrated. Because we believe this
          premise remains valid, we included some of these same States in this study. We included
          New Mexico based on information obtained from State registrars, the Immigration and
          Naturalization Service, and the National Center for Health Statistics during preinspection.
          The locations selected represent a mix of States with “open” and “restricted” (limited)
          public access to records, and include various geographic regions.




Birth Certificate Fraud
                                                   4                                OEI- 07-99-00570
          In the six locations, we collected more in-depth information about the coordination
          between agencies, matching death registration and birth certificates, security measures,
          enforcement, and the effects of new technology on birth certificate fraud. This
          information was obtained through personal interviews with State registrars, fraud
          investigators, local and State vital records agency staff, and local and State Temporary
          Assistance for Needy Families agency staff. We also collected information from the
          Departments of Motor Vehicles and Food Stamps staffs who require birth certificates as
          proof of eligibility for program services or benefits, and officials from SSA, Immigration
          and Naturalization Service, and State Department’s Passport Services. We also met with
          the Center for Disease Control and Prevention, National Center for Health Statistics staff
          who provided us with comments on the draft of this report

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Birth Certificate Fraud
                                                   5                               OEI- 07-99-00570
                                        FINDINGS

          In conducting this inspection, we heard many stories of people whose lives have been
          adversely affected by birth certificate fraud -- people who were personally victimized by
          stolen identities and suffered financial ruin. Others stories were more far-reaching,
          describing the criminal use of fraudulent birth certificates to evade law enforcement for
          crimes already committed, commit bank or credit card fraud, or obtain services and
          benefits for which individuals were not entitled. We also heard stories about fraudulent
          birth certificates used by terrorists and drug traffickers to acquire passports for
          international travel, and by illegal aliens attempting to avoid detection and deportation.
          The common threads running through each of these stories are 1) fraudulent birth
          certificates were involved, 2) most false identity crimes go undetected, 3) once detected,
          few false identity crimes are successfully prosecuted, and ultimately, 4) each one of us is
          affected by birth certificate fraud every day.

          Recent Congressional and media attention on the subjects of identity theft and the sale of
          false identification documents via the Internet, and the statements of State and Federal
          staff with whom we spoke, reflect concerns regarding the fraudulent use of birth
          certificates. Virtually everyone with whom we spoke indicated that they believe birth
          certificate fraud is increasing, and 34 State registrars responded in the survey that birth
          certificate fraud has increased in the last 10 years.

          To this end, the primary focus of this report and the majority of our findings address the
          status of birth certificate fraud. However, one of our most striking findings is related to
          the disconnect between the intended purposes of birth certificates and the purposes for
          which they are used.

Fundamental, Irreconcilable Conflicts Surround Birth
Certificate Purposes and Uses
          A Birth Certificate is Proof Only that a Birth Occurred and was Recorded. It is
          important to recall the intended purpose of a birth certificate -- to certify that a birth was
          documented and recorded. For that purpose, it is not unreasonable that State laws allow
          public access to these records. Efforts to restrict access to birth certificates would
          diminish their value for the purpose they were originally designed to serve.

          However, Birth Certificates are Used as Proof of Age, Citizenship, and Identity.
          Birth certificates are widely recognized as proof of age, place of birth, and identity. They
          are also used extensively for employment purposes, to obtain benefits or other documents
          (e.g., driver’s licenses, Social Security cards, and passports), to assist in determining
          eligibility for public assistance and other benefits, to enroll children in school, and as proof
          of age eligibility for sports and other age restricted activities. However, because


Birth Certificate Fraud
                                                     6                                 OEI- 07-99-00570
          they were never designed to provide sole proof of identity, and because a birth certificate
          cannot be positively linked with an individual, their use for that purpose is questionable.

          Concerns about Birth Certificates are Largely the Result of Conflicting
          Perspectives. The key to understanding the conflicts between the goals of State and local
          entities who register births and issue birth certificates and agencies and organizations that
          rely on birth certificates as proof of identification is understanding and interpreting
          individual perspectives. For example, those seeking access to public records may look
          favorably on vital records offices’ efforts to make it easier to request and obtain birth
          certificates, while those using birth certificates for identity purposes may have concerns
          with how easily certified copies of birth certificates can be obtained.

          These varying perspectives are at the very heart of the birth certificate controversy and
          should be kept in mind as you read the following findings related to birth certificate fraud.

Birth Certificates Continue to be Used as “Breeder
Documents” and Are Easy to Obtain
          As we previously reported in 1988, 1991, and 1996, birth certificates continue to be used
          as “breeder documents” from which other supporting documents can be secured to alter
          identities and fraudulently obtain services and benefits. Virtually all Federal and State
          agencies agree that fraudulent birth certificates are used to obtain genuine documents, and
          in concert with other fraudulent documents, to create new identities. The perpetrator
          usually begins with a purchased, stolen, counterfeit, or altered birth certificate. The birth
          certificate is then used as the basic evidence of age, citizenship, and identity to seek and
          obtain other documents and/or benefits.

                                  Birth Certificate º Social Security Card º Driver’s License
                                                = Services/Benefits/Credit/Crime
          The following two instances demonstrate how birth certificates have provided the basis for
          improper program payments.

                      A joint investigation conducted by the Assistant U.S. Attorney for the Southern
                      District of Texas in cooperation with the Immigration and Naturalization Services,
                      Social Security Administration, public assistance, Food Stamps, U.S. Postal
                      Service, and Secret Service identified 100 cases in which fraudulent birth
                      certificates had been used to obtain public assistance, Food Stamps, and Medicaid
                      benefits totaling $514,741.1



          1
              Source: Texas Department of Human Services, Office of Inspector General



Birth Certificate Fraud
                                                                       7                  OEI- 07-99-00570
                       In another case, fraudulent birth certificates found at the scene of an automobile
                       accident were linked to $1 million in public assistance and Food Stamps fraud.
                       Some of the birth certificates used to obtain these services were genuine
                       documents that had been sold by the persons whose names appeared on them.
                       Others were counterfeit documents printed on genuine birth certificate banknote
                       paper used by one State’s vital records office, which investigators suspect were
                       acquired as “part of an inside job.” Staff interviewed in a public assistance agency
                       referred to the children created to obtain these services as “paper babies” because
                       they exist only on paper, for the sole purpose of fraudulently obtaining benefits.2

          The first step in understanding why birth certificates are easy to obtain, thus making them

          useful as “breeder documents,” is to understand how they are issued. It is also important

          to know that the issuance of birth certificates varies from State to State and can vary

          within States. Factors which contribute to the continued use of birth certificates as

          “breeder documents,” and that remain relatively unchanged since our earlier reports are as

          follows. 


          Currently, 6,422 Entities Issue Birth Certificates. The majority of States use a

          decentralized approach for issuing birth certificates, relying on local offices over which

          they have limited control. In 39 States and Puerto Rico, birth certificates are issued by a

          number of local vital records registrars and other officials (e.g., county clerks, justices of

          the peace, mayors) in county, city, and township offices in addition to the State vital

          records office. Only 11 States, Washington, DC, and New York City use a centralized

          operation for issuing birth certificates.


          The large number of locations issuing birth certificates potentially increases the

          opportunities for fraud, theft, bribery, or other methods to illegally obtain birth

          certificates. In total, the registrars responding to our survey report 6,417 different

          locations where birth certificates can be issued. The National Center for Health Statistics 

          indicates an additional five entities issue birth certificates within the jurisdictions of the

          four primary vital registrars that did not respond to our survey. A chart outlining the

          reported number of locations where birth certificates are issued in each State,

          New York City, Washington, DC, and Puerto Rico is located in Appendix A.


          Most State and county issuing offices are located within the auspices of their respective

          health departments. The sale of birth certificates serves as source of revenue for States

          and the only source of revenue for some State health departments, thus creating no

          disincentive for issuing birth certificates. The sale of birth certificates can serve also as a

          major source of revenue for many local offices. For these departments and offices,

          restrictions on the issuance of birth certificates could adversely affect revenues. 





          2
              Source: Kansas Department of Health and Environment, Center for Health and Environmental Statistics, Office of Vital Statistics



Birth Certificate Fraud
                                                                         8                                               OEI- 07-99-00570
          Some States Allow “Open” Access to Birth Records. In 36 States, New York City,
          Washington, DC, and Puerto Rico, access to birth records is considered “restricted.” In
          these locations only the person listed on the birth certificate and others designated for
          access by State or local governments (e.g., parent, child, sibling, grandparent, or others
          who demonstrate a direct and tangible interest) can obtain certified copies of a birth
          certificate. However, in 14 States, public access to birth records is “open” at the State or
          local level, and virtually anyone can review birth records or purchase a copy of any birth
          certificate from issuing entities as long as they know the name and birth date of the person
          listed on the birth certificate. There are 2,375 such “open” access locations in these
          States, which account for 37 percent of the 6,422 issuing offices nationwide.

          C	        Ten of the 14 States allow “open” access at both the State and local levels and
                    treat requests for birth certificates the same in all locations.

          C	        Two States allow “open” access at the State level, but allows only “restricted”
                    access in all local offices within the State.

          C	        Two States allow only “restricted” public access to birth records at the State level,
                    but “open” at the local level. They allow birth registration indexes and/or actual
                    birth certificates to be openly viewed in local offices and thus provide enough
                    information to request copies of certificates from the State registrar’s office.

          We have identified “open” access at both the State and local level, and the number of

          issuing offices in each of those States, in the following chart.

          .

                                       Open Access to Vital Records

                                          Issuing Entities                       Total
                                        State         Local                   Number of
                          State         Level         Level                Issuing Offices

                    California             °              °                        63
                    Iowa                                  °                       101
                    Kentucky               °                                        1
                    Maine                  °              °                       498
                    Massachusetts          °              °                       352
                    Minnesota              °              °                        98
                    New Jersey             °              °                       566
                    North Carolina                        °                       102
                    Ohio                   °              °                       144
                    South Dakota           °              °                        65
                    Tennessee              °                                       28
                    Vermont                °              °                       248
                    Washington             °              °                        34
                    Wisconsin              °              °                        75
                                                                                2,375

Birth Certificate Fraud
                                                      9                                 OEI- 07-99-00570
          Copies of birth certificates can be obtained from primary vital records offices and local
          entities by using a variety of methods. With the exception of California, all of the
          responding primary vital records registrars indicate birth certificates can be obtained from
          their offices on a “walk-in” basis. All 53 State vital records offices and local offices in
          34 States also issue birth certificates in response to requests they receive in the mail.
          Thirty-eight primary offices and an unknown number of local offices in seven States also
          allow credit card purchases of birth certificates based on telephone requests. Birth
          certificates can also be purchased through the Internet in 29 States, and from an unknown
          number of local offices.

          Proof of Identification Is Not Always Required to Obtain Copies of Birth
          Certificates. Proof of identification is required for walk-in requests in only 30 primary
          vital records offices and local offices in 19 States. In addition, only 11 States require
          persons to provide proof of identification when requesting copies of birth certificates by
          mail. Local offices in fewer States (7) require proof of identification for mail requests.
          Even fewer primary and local offices request proof of identification for Internet and
          facsimile requests as indicated in the following chart.

                    Number of Vital Records Offices Accepting Type of Request
                              and Proof of Identification Required

                                                        State                   Local
                    Type of Request                Accept/Require ID        Accept/Require ID

                    Walk-in                               52/30                   39/19
                    Phone/Credit Card                     38/7                    10/1
                    Mail/Check or Money Order             53/11                   34/7
                    Mail/Credit Card                      22/2                    8/2
                    Internet/Credit Card                  29/5                    3/2
                    Facsimile/Credit Card     41/9                        10/2


          When asked what they consider acceptable forms of identification, the registrars
          interviewed said they would prefer a driver’s license or State issued identification card as
          proof of identity, but some indicated they would also accept identification documents with
          “any type of control number” (e.g., employment badges, library cards, bus passes) or
          utility bills as proof of identification. We also learned the laws in one “open access” State
          (California) prohibit issuing offices from asking for identification. As long as the person
          requesting the birth certificate can provide the required information (i.e., name, date of
          birth), he or she can obtain a certified copy of a birth certificate. In addition to the lack of
          identification documents, 43 States also have no limits on the number of copies of birth
          certificates that can be purchased, and 31 States have no restrictions on the age of persons
          to whom they will sell birth certificates. The lack of restrictions make it easier to
          perpetrate systematic fraud.

Birth Certificate Fraud
                                                    10                                 OEI- 07-99-00570
Fraudulent Birth Certificates are Hard to Detect
          With the exception of detection by highly trained Immigration and Naturalization Services
          and Passport Services staff, information we obtained indicates many altered or counterfeit
          birth certificates and genuine birth certificates held by imposters may go undetected.
          Officials who use birth certificates to determine eligibility for services and benefits say they
          fail to detect many fraudulent documents, and the ones they do detect are “only the tip of
          the iceberg.” In attempting to identify fraudulent birth certificates, SSA, public assistance,
          Department of Motor Vehicles, and some Immigration and Naturalization Service staff
          indicate their efforts to detect fraudulent birth certificates focus only on obvious
          alterations, such as erasures, smudges, white-out, misspelled words, offset margins, poor
          seals, dates that do not match, or photocopies. However, information we obtained
          indicates birth certificates are vulnerable to fraud beyond the obvious in the following
          areas.

          The Large Number of Legitimate Birth Certificates in Circulation Make Fraud
          Detection Difficult. Staff at the Immigration and Naturalization Service’s Forensics
          Document Laboratory3 estimate more than 14,000 different versions of legitimate birth
          certificates currently exist. The number of different versions is the result of the more than
          6,000 entities issuing birth certificates using different formats, types of paper, and different
          signatures (e.g., State registrars, county registrars, or clerks, mayors, and justices of the
          peace). Once a birth certificate is issued, it never expires, meaning that security features
          added to new birth certificates will offer no protection against fraud in previously issued
          birth certificates. The National Center for Health Statistics reports that 3,957,829 United
          States births were registered in 1999.

          In addition, responses to our survey revealed State vital records offices currently issue 113
          different types of certified copies of birth records. This number does not account for the
          number of variations in local office issuance. Fifty-one of the 53 primary vital records
          offices issue certified photocopies of actual birth records, 37 issue certified copies of
          computerized abstracts of birth records, 17 issue wallet-sized birth certificates/cards, and 8
          issue commemorative birth certificates, each with their own unique security features and
          signatures. In addition, survey respondents report that, in 20 States, local entities issue
          full photocopies of actual birth records, 16 States’ local entities issue certified copies from
          computerized abstracts, 17 States’ local entities issue wallet-sized certificates, and 4
          States’ local entities can issue commemorative birth certificates.

          Differences in Paper, Security Features, Formats, and Signatures Make Fraudulent
          Birth Certificates Hard to Detect. All State vital records offices issue birth certificates
          on security paper, but the security features vary from State-to-State. Some local offices

          3
            The Forensics Document Laboratory provides a wide variety of forensic document analysis and law enforcement services for the
          Immigration and Naturalization Services and other Federal, State, and local law enforcement agencies. It also develops and presents
          training programs in the detection of fraudulent documents, assists in identifying fraudulent documents, and acts as a liaison in promoting
          common efforts to combat international document fraud.



Birth Certificate Fraud
                                                                        11                                                 OEI- 07-99-00570
          also issue birth certificates on security paper, but in 14 of the local offices with local
          issuance they use different security paper than the State vital records office. (One local
          office we visited issues birth certificates on plain white bond paper.) The security features
          most often used by both State and local offices are serial numbers, watermarks, and micro-
          line printing. Other paper security features used include intaglio and steel-engraved
          borders, ultraviolet ink, security threads, substrate paper or ink, hidden voids, and latent
          images. A chart outlining the security features contained in the paper used by State vital
          records registrars is located in Appendix B.

          Adding to the potential number of different types of valid birth certificates in existence is
          the unknown number of changes in paper used to issue birth certificates, the number of
          different formats used, and the number of different registrars’ signatures that have
          appeared on birth certificates since the birth registration began in most States in the early
          1900's. State registrars interviewed estimate periodic changes in paper and/or formats
          occur every 8 to 10 years, and that registrar signatures could change more frequently,
          especially when registrars are local elected officials (e.g., county clerks, mayors). States
          and local offices also make changes in the vendors from whom they purchase their security
          paper. Some change vendors annually because State laws require that they purchase from
          the lowest bidder. Local offices also make periodic changes in the vendors from whom
          they order their security paper, and many order paper based on State issued specifications,
          but not from the same vendor used by the State.

          Technological Advances Make Counterfeit Birth Certificates Easy to Create and
          Hard to Detect. Advances in communication (e.g., the Internet) and technologies
          (e.g., scanners, color printers and copiers) make it easier to obtain genuine birth
          certificates fraudulently or to create fraudulent birth certificates. These technological
          advances render the once standard methods of detecting fraudulent documents generally
          ineffective. With the exception of one public assistance office, which requires every
          applicant to be fingerprinted, virtually everyone we talked with says technology has made
          birth certificate fraud more likely. This is supported by the 27 primary vital records
          registrars responding to our survey who also say that technology has created new
          opportunities for fraud.

          Our discussions also reveal that technology has made birth certificates the “path of least
          resistance” because, as other departments and agencies have increased the security
          features in their documents (e.g., Social Security cards, driver’s licenses, and immigration
          documents), less secure birth certificates have been targeted for counterfeiting. As
          previously noted, counterfeit birth certificates are then used to obtain genuine Social
          Security cards, driver’s licenses, and, ultimately, new identities. With each genuine
          document acquired, a person’s new identity becomes harder to detect.

          Information available through the Internet poses a significant security risk to the integrity
          of birth certificates. Not only are birth certificates available through the Internet, but the
          vital statistics necessary to request some birth certificates can be found using the Internet
          as well. Some vital records offices also post indexes, containing the names and birth dates
          of people for whom they have registered births, on their websites.

Birth Certificate Fraud
                                                   12                                OEI- 07-99-00570
          At least one local vital records office, at one time, posted scanned copies of actual birth
          certificates on their website. Many hospitals also have established websites where they
          post newborn information, and independent companies offer websites that allow parents to
          share their newborn’s vital records information with anyone who accesses the site. We
          found many websites offering information to assist in creating new identities and websites
          offering “novelty” fake identification (many of which include birth certificates, Social
          Security cards, and driver’s licenses). Federal and State staff we spoke with said the price
          “on-the-street” for a new identity, which includes a birth certificate, and often a driver’s
          license and Social Security card, is between $500 and $1,200.

          Most Birth Certificate Fraud is Committed Using Genuine Documents. An alarming
          fact is that most of the fraudulent documents identified by Immigration and Naturalization
          Services staff are genuine documents held by imposters, the most difficult frauds to detect.
          For example, staff in the El Paso Intelligence Center4 indicate that 90 percent of the false
          claims cases they see involve bonafide birth certificates held by imposters. Passport
          Services staff report parallel statistics, stating that 85 percent of the birth certificate fraud
          they encounter also is the result of genuine birth certificates held by imposters. Further,
          vital records registrars responding to our survey indicate they have encountered persons
          impersonating others to obtain genuine copies of those persons’ birth certificates,
          individuals who had purchased birth certificates from the persons’ named on the birth
          certificate, and persons who had stolen or acquired stolen birth certificates.

          Federal and State agency staff say genuine documents held by imposters are difficult to
          detect. They also note that increased customer service is impacting their abilities to detect
          fraudulent documents and say serving a large number of customers with limited resources
          leaves little time to examine identification documents. We highlight our discussions with
          them below.

          S	         Public Assistance and Food Stamps agency staff say they detect virtually no birth
                     certificate fraud.

          S          SSA staff report detecting only limited attempts at birth certificate fraud.

          S	         Immigration and Naturalization Service regional office staff indicate they may
                     only be detecting common alternations and obvious counterfeits.

          S	         Passport Services staff note fraudulent birth certificates are getting harder to
                     detect and that imposters are almost impossible to detect once they have obtained
                     a genuine passport.




          4
            The El Paso Intelligence Center is staffed by the Drug Enforcement Agency, Immigration and Naturalization Services,
          and 13 other agencies to collect information on drug trafficking, immigration violations, and other crimes.



Birth Certificate Fraud
                                                                      13                                               OEI- 07-99-00570
          Agencies Receive Little Training Focused on the Detection of Fraudulent Birth
          Certificates. Staff who depend on birth certificates as proof of citizenship and eligibility
          for services or benefits report receiving little training focused on the detection of
          fraudulent birth certificates, and that training received is focused on “obvious attempts at
          counterfeiting.” As such:

          S	        SSA district and field office staff, and Department of Motor Vehicles office
                    employees indicate they receive only limited training focused on the identification
                    of fraudulent birth certificates.

          S	        Public Assistance and Food Stamps agency staff note receiving little or no training
                    to assist them in detecting fraudulent birth certificates.

          S	        Immigration and Naturalization Service staff receive internal training to assist
                    them in the identification of fraudulent birth certificates, but it is limited.

          S	        Passport Services Staff in regional offices and the National Passport Services
                    Center are responsible for issuing passports and receive training focused on birth
                    certificate fraud. However, the over 4,500 acceptance agents located primarily in
                    Post Offices and State and Federal Courts receive little training in the identification
                    of fraudulent birth certificates.

State Practices Create Opportunities for Fraud
          Delayed, Amended, and Midwife Birth Registrations Provide Opportunities for
          Fraud. State and local vital records staff say birth certificates issued based on delayed
          and amended birth registrations are more likely to be fraudulent. They also say they
          consider births registered by midwives, and other home births, to have a high potential for
          fraud.

          Delayed birth registration occurs when a certificate of birth is not filed within the time
          specified by State law. Delayed birth registrations are sometimes the result of unattended
          home births, midwife births, and other out-of-hospital births. The Model State and Vital
          Statistics Act and Regulations require delayed certificates to be issued for births not filed
          within 1 year. Based on our survey responses, the State median time frame for filing
          delayed registrations is 1 year, but varies from State-to-State and ranges between 10 days
          and 4 years.

          Federal and State staff alerted us to problems with delayed birth registration. These
          problems arise from the lack of evidence required to file a delayed birth in some States.
          Not all States include information with birth certificates about the documentary evidence
          they accept as proof a birth occurred, and upon which delayed registrations are allowed,
          with delayed birth certificates. Likewise, the documentary evidence required to register
          delayed births is inconsistent among States. Forty-seven States accept affidavits of


Birth Certificate Fraud
                                                      14                                OEI- 07-99-00570
          personal knowledge as proof a birth occurred, and 14 include no abstract of documentary
          evidence when issuing delayed birth certificates.

          Amended birth registration occurs when changes are made to the vital information
          contained on the original birth registration. While we did not specifically address amended
          birth registrations in our survey, they were identified as problematic in our discussions
          with Federal agency and State vital records office staff. The overall concern surrounding
          amended registrations is similar to that of delayed registrations in that some States do not
          require substantial evidence to amend birth registrations and that birth certificates issued
          based on amended registrations are not clearly marked as having been “amended.” One
          State registrar also noted a growing problem in which adults are adopted by other adults,
          usually for inheritance purposes. In these cases, the adopted person undergoes a legal
          change of name and their birth record is altered, but the fact that the adoption took place
          is never recorded in any way on the original or amended birth certificate.

          Midwife birth registrations were also identified as an area of concern. Midwives provide
          a valuable service in insuring the healthy delivery of children and accurate registration of
          births. However, out-of-hospital births attended by midwives have raised concerns.
          Sixteen State registrars indicate they have encountered problems specifically linked to
          midwife birth registration. Our discussions with Federal, State, and local staff during our
          onsite visits indicate that problems associated with midwife registrations are concentrated
          along the United States-Mexico border. In fact, midwife registration has become such a
          problem in one border city we visited that they now require a police officer to be called to
          the scene shortly after any midwife delivery to verify that the birth actually occurred in the
          United States. All 41 States that allow midwives to register births have procedures and
          guidelines in place for such registration, but only 17 of those States require information in
          addition to or different from that required for hospital births. The additional information
          required to register midwife births in these States can include attendant affidavits, prenatal
          and/or post-partum records, and notarized statements or other documentation verifying
          the birth took place. In addition, some States require that midwives provide
          documentation that the mother lived in the State at the time the birth occurred.

          Delays in Matching Death and Birth Records Create Opportunities for Fraud.
          While our contacts all agreed that matching death and birth information is a strong
          deterrent to improper use of a genuine birth certificate, delays in matching those records
          present opportunities for fraud. In our interviews, we heard many stories in which the
          identity of a deceased person was assumed by obtaining a copy of their birth certificate. In
          these stories, imposters chose their new identities from names listed in newspaper obituary
          columns, from newspaper articles about individuals who had been murdered or killed in
          accidents, or from cemetery markers. Others had assumed the identities of deceased
          friends or family members. In each case, the imposter obtained a copy of the deceased
          person’s birth certificate before it had been matched with the death registration.




Birth Certificate Fraud
                                                    15                                OEI- 07-99-00570
          With the exception of one State (Connecticut), primary vital records registrars responding
          to our survey say their offices match death and birth registrations and that they send
          information regarding deaths occurring in their State to the States in which the deceased
          individuals were born. They indicate most death information is transmitted to other States
          by mail (47), but some States (12) also transmit information electronically, and
          1 State transmits death information to other States by facsimile.

          Forty registrars indicate the time between when a death is registered and the time the
          death is recorded on a birth record creates opportunities for fraud, and 24 registrars say
          they do not consider the receipt of death information from other States to be timely.
          Thirty registrars indicate that, on the average, they provide batched death notification to
          other States between 1 and 3 months after the death, 11 say between 3 to 6 months after
          death, 4 say between 6 and 12 months, and 4 say it takes them 12 months or longer to
          provide death information to other States. The result is that, even though a State may
          send information to other States on a monthly basis, because of delays and batching of
          records, the deaths may have occurred many months before the death and birth records
          can be matched.

          Once received, limited resources have forced most States to establish priorities to
          determine which death and birth records will be matched, and, as a result, 40 States have
          established priorities for matching death and birth records. As such, 20 States give
          priority status to matching death registrations for infants under the age of 1 year, and
          17 States assign priority status to deceased individuals under the age of 45.

          Adding to the problems associated with birth certificates of deceased individuals is the fact
          that five State registrars do not mark original birth records maintained in the State vital
          records office “deceased,” and six do not issue certified copies clearly marked “deceased.”
          In addition, birth certificates issued from computerized abstracts by those offices are not
          marked “deceased” in 3 of the 37 States that issue them. When asked if they would
          attempt to gain additional information if the information provided to them was insufficient
          to provide a positive match between the death registration and a birth record, only 27
          registrars said yes.

          Physical Security Creates Opportunities for Fraud. Despite the statements of
          registrars, we observed a number of questionable security situations during our onsite
          visits. Fifty-two of the responding registrars say they keep the paper used to print birth
          certificates in secured areas (e.g., locked cabinets, vaults, safes, and locked rooms) outside
          business hours. During business hours however, we observed a number of instances where
          birth certificate information or the paper used to print birth certificates were not secured.
          State registrars also indicate the number of vital records employees with access to birth
          certificate paper ranges between 3 and 60.




Birth Certificate Fraud
                                                   16                                OEI- 07-99-00570
          In our visits to local offices we also observed a number of situations we consider
          vulnerable. For instance, in one local office:

          S	        certified copies of birth certificates ready for customer pick-up were kept in a box
                    just inside the customer service counter, in plain view of the public, and well within
                    arms-reach of anyone;

          S	        office copies of carbon-set applications used over the last several years to request
                    copies of birth certificates (and containing all the information needed to obtain
                    additional copies) were kept rubber-banded together and stacked in open boxes on
                    the floor just inside the back door; and

          S	        several stacks of unclaimed birth certificates (some printed as far back as 1995)
                    were kept on a shelf in a small locked closet.

          Destruction of Documents - The destruction of documents and tools also poses a security
          problem in some offices. Some State registrars told us they are required to contract with
          the lowest bidder for destruction of unused or voided birth certificate paper, applications,
          microfilm, and embossing equipment. In some States, vital records staff “hand-shred”
          documents and place them in open containers for pick-up and machine shredding at a later
          date. In one State, paper slated for destruction was stolen or sold, and ultimately used to
          create fraudulent birth certificates. In that same State, applications and voided documents
          are now “hand-shredded” and stored in boxes awaiting a new contract for the destruction
          of documents.

          Employee Background Checks - In spite of the fact that 25 State registrars say that birth
          certificate fraud has been committed by vital records employees in their State, only
          14 States conduct background checks on vital records office employees.

          Use by Sports Teams - Another security issue and opportunity for fraud brought to our
          attention was the use of birth certificates by sports team coaches to prove age and
          eligibility of players. Every day, thousands of certified copies of birth certificates are
          carried around on clip boards at ball parks across the country, and in one known instance,
          a coach discarded birth certificates in a trash container at the end of a season. In other
          instances, birth certificates used for sports activities were alleged to have been sold across
          the border to assist illegal aliens to gain entry into the United States.

          Access to Computer Files - In our discussions with Federal and State staff, we noted a
          number of staff with direct access to vital records information via computer terminals.
          While such access allows SSA, public assistance, and Food Stamps staff to quickly verify
          birth record information online, it increases the number of people with access to that
          information. In one office, the password to enter the system was printed on a piece of
          paper taped to the edge of the computer screen.




Birth Certificate Fraud
                                                     17                                OEI- 07-99-00570
          Limited Oversight of Local Offices Makes Them Vulnerable to Fraud. Of the

          42 States with local issuance, State vital records staff conduct monitoring visits to the

          local offices in their States on an annual basis in only 18 States and biannually in only

          3 States. However, we question some States’ abilities to conduct monitoring of between

          300 and 500 local offices annually or biannually. In 10 other States, registrars say they

          also conduct monitoring visits to local issuing offices, but do so only on an “as needed” or

          occasional basis. There are 2,767 local issuing entities in States where monitoring is done

          “as needed” or occasionally. 


          State registrars say the activities conducted during onsite visits can include auditing

          records, reviewing laws and regulations with issuing staff, providing onsite training, and

          reviewing security procedures and issues. Many local offices have never been visited by

          State vital records staff. Staff in those offices that have been visited say the visits are

          usually nothing more than quick audits of their financial records related to the sale of birth

          certificates. In another State, the large number of local offices prohibits visiting all of

          them, so a self-assessment form is used to gather information about security in those

          offices. By completing this survey, the State vital records office not only gains

          information about the local offices, but it also educates local office staff regarding security

          measures.


          Very few state vital records staff are assigned responsibility for the detection of fraud, and

          only 24 States employ someone responsible for fraud activities. However, in 

          16 States, registrars indicate staff designated responsibility for fraud activities devote less

          than 25 percent of their time to birth certificate fraud. Other State registrars say their lack

          of funds prohibits them from employing someone designated responsibility for birth

          certificate fraud.


          In addition, Immigration and Naturalization Service and Department of Motor Vehicles

          office staff say they experience difficulty in obtaining the information they need to verify

          questionable birth certificates in a timely manner. As such, Immigration and

          Naturalization Service staff described situations in which they have detained individuals

          with suspect birth certificates for which they need immediate vital information, but were

          unable to get the information quickly. Passport Services staff say they also have

          encountered problems verifying birth certificate information in a timely manner. In

          addition to contacting State vital records offices directly, they contact the SSA office in

          Baltimore, MD, for information to assist them in determining whether or not a birth

          certificate presented by a passport applicant is valid. However, they are limited in the

          number of such requests they can make, and are forced to prioritize their requests,

          choosing which questionable or suspect applications they pursue.


Birth Certificate Fraud is Seldom Prosecuted
          The False Identification Crime Control Act of 1982, Public Law 97-398, amended Title 18
          of the United States Code to provide penalties for certain false identification related
          crimes.

Birth Certificate Fraud
                                                    18                                 OEI- 07-99-00570
          Section 1028 of that law addresses fraud activity in connection with identification
          documents. This law makes it a crime to knowingly produce, transfer, or possess false
          identification documents with the intent to defraud the United States. Punishment for an
          offense under this Act is a fine of up to $25,000 and/or imprisonment for up to 5 years.
          Many State statutes also address identity fraud, but it is considered a felony in only
          23 States. In 28 States, birth certificate fraud remains a misdemeanor.

          However, virtually all of the Federal and State staff we talked with indicate birth
          certificate fraud is seldom prosecuted unless it can be linked to large dollar losses or other
          punishable crimes. Most staff also indicate that many prosecutors are reluctant, or refuse
          to take birth certificate fraud cases in which the only charge is attempting to obtain
          another individual’s birth certificate, or counterfeiting or altering a birth certificate.
          Further, State registrars indicate they receive information about potential fraud cases from
          Passport Services, SSA, Department of Motor Vehicle offices, and law enforcement.
          However, most indicate they receive little feedback regarding cases they refer for
          prosecution.

Misconceptions Exist Regarding the Security and Integrity of
Birth Certificates
          During the course of our study, we found that many misconceptions exist surrounding the
          security and integrity of birth certificates. We also found that a lack of education exists
          regarding the importance of securing vital records information. Misconceptions include
          the following:

          C         a birth certificate insures the identity and citizenship of the person holding it;

          C	        birth certificates can be obtained only by the individual listed on the certificate or
                    appropriate family members;

          C         if a birth certificate contains a crimped seal, it is “real”;

          C	        birth certificate information is always safeguarded when provided to user agencies
                    or entities (e.g., sports managers); and

          C         lamination improves the integrity of birth certificates.




Birth Certificate Fraud
                                                        19                                OEI- 07-99-00570
                                 CONCLUSIONS

Birth Certificates Alone do not Provide Conclusive or Reliable Proof of
Identity

          However, agencies who rely on birth certificates as a means of establishing identity must
          understand the limitations of accepting a birth certificate as proof of age, citizenship, or
          identity. While the agency has a need or requirement for establishing identity, the issuing
          entity most likely does not.

          A related point is that genuine documents obtained with counterfeit birth certificates can
          be used to obtain genuine birth certificates, which in turn are used to obtain additional
          identification documents. This vicious cycle enables persons establishing false identities to
          acquire the documentation and proof of identity necessary to open bank accounts,
          establish credit, and evade law enforcement. Thus, it is inherently illogical to require
          someone to prove their identity using potentially fraudulent identity documents spawned
          by false birth certificates in order to obtain a birth certificate.

Further, it would be Impractical to Redesign Birth Certificates to Make
them Reliable Identification Documents in and of Themselves

          The birth certificate does not provide positive proof of identity of the holder. Efforts to
          make the birth certificate into a reliable identity document are complicated by the more
          than 14,000 different versions of legitimate birth certificates currently in existence, and the
          more than 6,000 entities that issue them and the processes used to do so. Efforts are also
          complicated by the ease with which birth certificates can be obtained in open States,
          through the mail, and via the Internet. In addition, technology has made birth certificates
          easier to counterfeit, and the majority of birth certificate fraud is now being committed by
          imposters using genuine birth certificates. Finally, because birth certificates do not expire,
          currently valid birth certificates will remain valid until an individual’s death, meaning that
          changes to the birth certificate itself will take essentially a lifetime to become fully
          effective.

Some Efforts to Redesign Birth Certificates Might Even be Undesirable


          The primary purpose for which birth certificates were created -- to document and record
          births -- is served well by the large number of entities that issue them and the technology
          that makes them readily and quickly available. It is through the many issuing entities and
          different issuing processes that we are afforded quick and easy access to our birth and
          other vital records information.



Birth Certificate Fraud
                                                    20                                OEI- 07-99-00570
          This intended purpose of birth certificates is also well served by the different types of birth
          certificates issued, which allows individuals to obtain information in formats most usable
          to them. However, these are the very things that breed fraud and render birth certificates
          unreliable proof of identity.

Nevertheless, Since Birth Certificates can Play an Important Role in
Establishing Identity, Their Integrity Should be Improved

          When used in combination with other documents, birth certificates can add to the level of
          proof in establishing eligibility and identity. As such, many agencies and organizations
          request that individuals provide birth certificates in order to receive a benefit or service, or
          to support the issuance of other documents used for identity purposes. The SSA uses
          birth certificates as proof of age in assigning Social Security numbers, and as proof of age
          and citizenship in determining eligibility for Supplemental Security Income benefits.
          Passport Services considers birth certificates primary evidence of birth in the United
          States, and while they do not consider birth certificates evidence of identity, they do
          consider them a primary document in establishing identity. In addition, public assistance
          agencies use birth certificates as proof of applicant age and relationship/parentage, and
          driver’s license offices require them as proof of birth and age. Many other State and
          Federal agencies also rely to some extent on birth certificates as part of the process to
          establish personal identity and eligibility for services and benefits.

          Given that birth certificates will undoubtedly continue to be an important element in
          determining identity, it is important that the processes used to issue birth certificates be
          standardized and that recent advances in technology be utilized to ensure birth certificate
          integrity parallels that of other identification documents. In support of this conclusion, we
          provide the consensus responses we received for improving the birth certificate process
          and the detection of birth certificate fraud. The suggestions include the following:

          State vital records offices and other entities that issue birth certificates may wish
          to consider

          S	        taking the steps necessary to reduce the number of legitimate birth certificates by
                    substantially reducing the number of entities that issue birth certificates and
                    different types of birth certificates issued;

          S         establishing national requirements for security paper;

          S	        placing a higher priority on matching death and birth records and the speed at
                    which these records are matched;

          S	        reducing opportunities for fraud created as the result of delayed, amended, or
                    midwife birth registrations by placing greater emphasis on the scrutiny of




Birth Certificate Fraud
                                                     21                                OEI- 07-99-00570
                    supporting documentation allowed as verification to register delayed, amended, or
                    midwife birth and marking delayed and amended birth registrations accordingly;

          S	        expanding the number of staff assigned responsibility for the detection and
                    enforcement of birth certificate fraud;

          S	        introducing the use of biometrics (e.g., fingerprints or other individual physical
                    identifier) into the birth certificate process, thus insuring positive links between
                    birth certificates and the people presenting them as proof of identity; and

          S	        launching a national campaign to inform the general public and user agencies about
                    the importance of safeguarding vital records and their vulnerability to fraud.

In Addition, Federal and State Program Administrators Should Assess
the Proofs of Identity They Will Accept

          Even if their security is improved, birth certificates may still not be the best proof of
          identity. For this reason, program administrators may not want to use birth certificates at
          all, or to use them only with other documents, as noted above. Agencies need to specify
          which other documents and methods of proving identity (e.g., fingerprints, testimony of
          relatives, employer information, background checks) they will accept in determining
          eligibility for services and benefits.

          Given what we have learned, if program administrators continue to include birth
          certificates in the proofs of identity their agencies and organizations will accept, they
          should reconsider how they use them, and what steps they will take to detect fraudulent
          certificates and to secure valid ones. For example, they should remain vigilant in their
          detection of fraudulent documents and genuine documents held by imposters. The nature
          of each individual program should dictate the level of proof the agency requires to
          establish identity, and acceptable documents determined accordingly. For instance, the
          same level of proof required to enroll a child in school may not be the same level of proof
          required to obtain a passport.

          In this vein, we provide consensus responses from persons surveyed and interviewed,
          which reflect longstanding suggestions for improving the use of birth certificates in
          establishing identity.

          Federal and State agencies who use birth certificates in determining eligibility for
          services and benefits may wish to consider

          S	        reassessing the documents they will accept as proof of identity and program
                    eligibility;

          S	        accepting only birth certificates issued on security paper that meets current
                    national standards;

Birth Certificate Fraud
                                                      22                                 OEI- 07-99-00570
          S	        using biometrics (e.g., fingerprints, DNA, retinal scans) to assist the agencies in
                    establishing proof of identity;

          S	        improving guidelines and procedures regarding the detection of fraudulent birth
                    certificates, and make them readily accessible; and

          S	        providing staff with ongoing training to assist them in detecting all types of birth
                    certificate fraud.




Birth Certificate Fraud
                                                      23                                OEI- 07-99-00570
             State and Local Birth Certificate
                                                                 APPENDIX A
                     Issuing Entities
                                                                        Number of Issuing Offices by Location
                 State
                                   Central/State           County                 City             Township     Other*          Total
                  Alaska                3                     0                     4                  15          0              22
                Alabama                 1                    67                     0                   0          1              69
               Arkansas                 1                     0                     0                   0          0               1
                Arizona                 1                    12                     0                   0          2              15
               California               1                    58                     4                   0          0              63
               Colorado                 1                    63                     0                   0          0              64
              Connecticut               1                     0                   169                   0          0             170
            Washington, DC              1                     0                     0                   0          0               1
               Delaware                 1                     2                     0                   0          0               3
                 Florida                1                    67                     0                   0          0              68
                Georgia                 1                   159                     0                   0          0             160
                 Hawaii                 1                     0                     0                   0          0               1
                    Iowa                1                   100                     0                   0          0             101
                   Idaho                1                     0                     0                   0          0               1
                  Illinois              1                    42                   100                   2          0             145
                 Indiana                1                    91                     3                   0          0              95
                Kansas                  1                     0                     0                   0          0               1
               Kentucky                 1                     0                     0                   0          0               1
               Louisiana                1                     0                     0                   0          5               6
            Massachusetts               1                     0                   351                   0          0             352
               Maryland                 1                    20                     0                   0          1              22
                  Maine                 1                     0                    22                 475          0             498
               Michigan                 1                    83                    27                   0          0             111
               Minnesota                1                    87                     5                   0          5              98
                Missouri                1                   113                     3                   0          0             117
              Mississippi               1                     0                     0                   0          0               1
                Montana                 1                    56                     0                   0          0              57
            North Carolina              1                    98                     0                  0           3             102
             North Dakota               1                     0                     0                  0           0               1
               Nebraska                 1                     1                     0                  0           0               2
            New Hampshire               1                     0                    13                 222          0             236
              New Jersey                1                     0                   565                   0          0             566
             New Mexico                 1                     9                     0                   0          0              10
                Nevada                  1                     2                     0                  0           0               3
               New York                 1                     4                   100                1,000       400            1,505
                    Ohio                1                    88                    55                   0          0             144
               Oklahoma                 1                     1                     1                  0           0               3
                Oregon                  1                    35                     0                   0          0              36
             Pennsylvania               1                     0                     0                  0           5               6
              Puerto Rico               1                     0                     0                  84          0              85
             Rhode Island               1                     0                    39                  0           0              40
            South Carolina              1                    46                     0                  0           0              47
             South Dakota               1                    64                     0                  0           0              65
              Tennessee                 1                    23                     0                  0           4              28
                  Texas                 1                   278                   587                  0           0             866
                    Utah                1                     0                     0                  0          12              13
                Virginia                1                     0                     0                  0           0               1
                Vermont                 2                     0                     8                 238          0             248
             Washington                 1                    33                     0                  0           0              34
              Wisconsin                 1                    72                     2                  0           0              75
             West Virginia              1                    55                     0                  0           0              56
               Wyoming                  1                     0                     0                  0           0               1
                NY City                 1                     0                     0                  0           0               1
                 Total                   560                 1,829               2,058                  2,036    438            6,417
          *Includes villages, regional branch offices, and some State vital records satellite office.




Birth Certificate Fraud
                                                                           24                                       OEI- 07-99-00570
                                                                              APPENDIX B


             Types of Certificates Issued and Paper Security

              Features Used by State Vital Records Offices



                                                      Type of Birth Certificate
                                        Full      Certified Copy    Birth Card or
                                     Photocopy         from         Wallet Sized      Commemor­
                                      of Birth    Computerized          Birth          ative Birth
                                      Record        Abstract         Certificate       Certificate
            Number of States

            Issuing Type of Birth

            Certificate                 51
              37              17                  8




            Number of States Using Specified Security Features
            Watermarks                  27               25              6                   3
            Intaglio                    19               20              9                   2
            Serial Numbers              35               34              15                  7
            Steel Engraved              18               19              10                  2
            Borders
            Ultraviolet Ink             9                13              2                   1
            Security Threads            11               13              3                   0
            Micro-Line Printing         25               28              7                   1
            Substrate Paper or Ink      14               14              4                   1




Birth Certificate Fraud
                                                 25                               OEI- 07-99-00570
